        AGREED-UPON
     PROCEDURES REPORT


      COSTS CLAIMED BY THE
  STATE OF MAINE, DEPARTMENT
  OF MARINE RESOURCES, UNDER
    FEDERAL AID GRANTS FROM
    THE U. S. FISH AND WILDLIFE
   SERVICE FROM JULY 1, 1996 TO
            JUNE 30, 1998




May 2002        Report No. 2002-E-0004
                                                                        X-GR-FWS-0012-2002-A


                  United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                         Washington, D.C. 20240




                                                                                     May 24, 2002

             AGREED-UPON PROCEDURES REPORT

Memorandum

To:        Director, U. S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Agreed-Upon Procedures Report on Costs Claimed by the State of Maine
           Department of Marine Resources, Under Federal Aid Grants from the U. S. Fish and
           Wildlife Service From July 1, 1996 to June 30, 1998 (No. 2002-E-0004)

                                    Introduction
        This report presents the results of our performance of agreed-upon procedures related to
costs claimed by the State of Maine Department of Marine Resources (Department) under
Federal Aid grants from the U.S. Fish and Wildlife Service (FWS) for the period July 1, 1996 to
June 30, 1998.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 USC 669) and the Federal
Aid in Sport Fish Restoration Act, as amended (16 USC 777) authorize FWS to provide Federal
assistance grants to the states to enhance their sport fish and wildlife programs. The acts provide
for FWS to reimburse the states for up to 75 percent of all eligible costs incurred under the
grants. Additionally, the acts specify that state hunting and fishing license revenues cannot be
used for any purpose other than administration of the state’s fish and game agencies.

       In May 2000, another audit agency prepared a draft audit report entitled “Audit of Maine
Department of Marine Resources Federal Aid Program Grants and Payments Awarded by the
U.S. Fish and Wildlife Service, Division of Federal Aid, State Fiscal Years 1997 and 1998.” The
scope of the audit work, as stated in the audit agency’s draft report, was to evaluate: (1) the
adequacy of the Department’s accounting system and related internal controls to determine if the
system can be relied upon to accurately accumulate and report the actual costs charged to the
grants; (2) the accuracy and eligibility of the direct and indirect costs claimed by the Department
under the Federal Aid grant agreements with FWS; (3) the adequacy and reliability of the
Department’s hunting and fishing license fees collection and disbursement process; and (4) the
adequacy of the Department’s purchasing system and related internal controls. The audit was
also to include an analysis of other issues considered to be sensitive and/or significant to the
FWS. The audit work at the Department covered $2.3 million in FWS grants that were open
during the Department’s fiscal years ended June 30, 1997 and 1998 (see the Appendix). The
audit agency’s agreement with the FWS expired before issuance of its final report to the State of
Maine.

        From 1996 through September 2001, the audit agency conducted audits under a
reimbursable agreement with FWS. The FWS did not renew or extend its agreement with the
other audit agency. At the time of expiration, final audit reports on several uncompleted audits
had not been and were in various stages of the audit and reporting processes. The other audit
agency indicated in a September 26, 2001 memorandum that its supervisors had not reviewed the
working papers to ensure that (1) sufficient, competent and relevant evidence was obtained, (2)
evidential matter contained in the working papers adequately supported the audit findings, and
(3) that the auditors used sound auditing techniques and judgment throughout the audit.

        On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which FWS
requested the OIG to (1) review the audit work performed by the other audit agency including its
working papers, summaries and draft reports for these audits and (2) issue reports on the findings
that were supported by the working papers. Accordingly, our review was limited to performing
the agreed-upon procedures as set forth in the Intra-Departmental Agreement and our
conclusions presented in the report are limited to the findings substantiated by the working
papers. We did not perform any additional audit work of the Department’s records and the
limited work performed does not constitute an audit by the OIG in accordance with Generally
Accepted Government Auditing Standards.

                               RESULTS OF REVIEW
        The audit agency’s working papers indicated that the Department’s accounting system
and related internal controls in effect during fiscal years 1997 and 1998 were adequate for the
accumulation and reporting of costs under Federal Aid grants. The working papers also
indicated that the Department’s other systems and related internal controls in effect during the
audit period related to purchasing, distribution of labor cost, grant compliance, and billing of
grant costs were adequate for Federal Aid participation. Furthermore, there were no questioned
costs identified in the working papers we reviewed.




                                              2
Since this report does not contain any findings or recommendations, a formal response is not
required.

Section 5(a) of the Inspector General Act (Public Law 95-452, as amended) requires the Office
of Inspector General to list this report in its semiannual report to Congress. If further
information is needed regarding this report, please contact Gary Dail, Federal Assistance Audit
Coordinator, at (703) 487-8011.

This Agreed-Upon Procedures Report is intended solely for the use of grant officials of the U.S.
Fish and Wildlife Service, and is not intended for, and should not be used by anyone who is not
cognizant of the procedures that were applied and agreed to the sufficiency of those procedures.

cc: Regional Director, Northeast Region
          U. S. Fish and Wildlife Service




                                             3
                                                                               APPENDIX


          MAINE DEPARTMENT OF MARINE RESOURCES
            SCHEDULE OF GRANT COSTS CLAIMED
               FOR FISCAL YEARS 1997 AND 1998



Grant No. Title                                 Federal Share State Share     Total

 F-34-R    Ecology of Groundfish                    $454,160     $229,483    $683,643

 F-40-T    Sportfish Restoration                    $133,335     $133,334    $266,669

 F-29-E    Marine Aquatic Education                 $425,700     $141,891    $567,591

 F-41-R    Striped Bass and Shad Restoration        $339,843     $339,853    $679,696

 F-42-R    Saltwater Recreational Fishing           $113,347      $37,783    $151,130

                                                   $1,466,385    $882,344   $2,348,729




                                            4
Mission
The mission of the Office of Inspector General (OIG) is to
promote excellence in the programs, operations, and
management of the Department of the Interior (DOI). We
accomplish our mission in part by objectively and
independently assessing major issues and risks that directly
impact, or could impact, the DOI’s ability to carry out its
programs and operations and by timely advising the Secretary,
bureau officials, and the Congress of actions that should be
taken to correct any problems or deficiencies. In that respect,
the value of our services is linked to identifying and focusing
on the most important issues facing DOI.


How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone - Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and
abuse related to Departmental or insular area programs and
operations. You can report allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free            800-424-5081
              Washington Metro Area        202-208-5300
              Hearing Impaired             202-208-2420
              Fax                          202-208-6023
              Caribbean Region             703-487-8058
              Northern Pacific Region      671-647-6060

Internet:     www.oig.doi.gov/hotline_form.html
